             DEPARTMENT OF THE INTERIOR
             OFFICE OF INSPECTOR GENERAL


                                AUDIT REPORT




                  Denver Office
             Contract Administration




REPORT NO. C-IN-BOR-0067-2002     SEPTEMBER 2004
This Page Intentionally Left Blank
TABLE OF CONTENTS

INTRODUCTION ............................................................................ 1

       BACKGROUND ..................................................................... 1

RESULTS OF AUDIT ...................................................................... 3

       INADEQUATE QUALITY CONTROLS ...................................... 3

       RECOMMENDATIONS ............................................................ 5

       BOR RESPONSE AND OIG CONCLUSION .............................. 5

APPENDICES

       1-CONTRACTS AND CONTRACT ACTIONS REVIEWED
          PLUS APPLICABLE CRITERIA ......................................... 7

       2-SCOPE AND METHODOLOGY ........................................... 13

       3-BOR RESPONSE .............................................................. 15

       4-STATUS OF AUDIT RECOMMENDATIONS ......................... 19




                                              i
This Page Intentionally Left Blank




            ii
INTRODUCTION
                                    This report presents the results of our audit of the Bureau
                                    of Reclamation Denver Office’s (BOR-DO) contract
                                    administration. The objective of the audit was to
                                    determine whether the BOR-DO awarded and
                                    administered contract actions1 in accordance with the
                                    Federal Acquisition Regulation (FAR) and other
                                    regulations and guidelines (hereinafter referred to as
                                    requirements). We found that the BOR-DO did not
                                    always award and administer contracts in accordance with
                                    requirements. (See Appendix 1 for details on the
                                    noncompliance issues identified by our audit.)

                                    The BOR-DO includes the Management Services Office,
BACKGROUND                          the Technical Services Center, the Office of Policy, and
                                    the Office of Diversity and Human Resources.2 The
                                    Management Services Office includes the Acquisition
                                    Operations Group (Acquisitions Group or Acquisitions).
                                    The Acquisitions Group has about 18 employees and is
                                    principally responsible for acquiring commercial goods
                                    and services. For fiscal years 2000 through 2002, the
                                    Acquisitions Group processed an average of 319 contracts
                                    and obligated an average of $27.1 million each year.

                                    The Acquisitions Group normally acquires goods and
                                    services for the Technical Services Center. The Technical
                                    Services Center provides scientific, research, and
                                    engineering services related to water management and
                                    development to the five BOR regions and to other
                                    governmental agencies. The Technical Services Center,
                                    which has about 670 employees, operates as a business
                                    and funds itself by billing its customers for services
                                    provided.

                                   We conducted our audit of the BOR-DO’s contract
                                   administration in accordance with the Government
1
 Contract actions include contracts, delivery orders, and procurement actions.
2
 In its response to our draft report, BOR stated that it has completed several organizational changes since
our fieldwork was completed. The BOR-DO now includes Security, Safety and Law Enforcement;
Operations – Denver; and Policy, Management and Technical Services. The Policy, Management and
Technical Services Office includes the Chief Information Office, Office of Program and Policy Services,
Technical Services Center, Management Services Office, Research and Development, and International
Affairs.


                                                     1
Auditing Standards issued by the Comptroller General of
the United States. Accordingly, we included such tests of
records and other auditing procedures that we considered
necessary under the circumstances. (See Appendix 2 for
details on our Scope and Methodology.)




              2
RESULTS OF AUDIT
                   In each of the 15 contract actions audited, we found
                   instances where the BOR-DO did not comply with the
                   requirements. For example, the Acquisition Operations
                   Group:

                         ¾ Awarded cost-plus-percentage-of-cost contracts
                           which are prohibited by requirements because
                           they provide no incentive for contractors to
                           hold down costs, as profit increases as costs
                           increase.

                         ¾ Awarded a sole-source contract without
                           adequate justification for the absence of
                           competition.

                         ¾ Awarded time-and-materials contracts when
                           firm-fixed-price contracts would have been
                           more advantageous to the Government.

                         ¾ Split purchases to stay below the micro
                           purchase limit of $2,500 and avoid additional
                           purchasing requirements.

                         ¾ Did not sufficiently monitor contractor
                           performance under time-and-materials
                           contracts to ensure that hours charged and
                           materials used were accurate and in accordance
                           with contracts.

                         ¾ Did not properly document contract files.

                         ¾ Made incorrect payments to contractors.

                   As a result of these deficiencies, the Government lacked
                   assurance that it was acquiring goods and services at the
                   most economical prices and that payments to contractors
                   were accurate. (See Appendix 1 for details on the
                   noncompliance issues identified by our audit.)

                   Quality controls were not sufficient to ensure that
INADEQUATE         procurement personnel complied with purchasing
QUALITY CONTROLS   requirements and were held accountable for unacceptable
                   work, or that program personnel were prohibited from



                                 3
improperly influencing contract awards.

The Acquisitions Group did not have written procedures
for its internal peer reviews specifying which contracts
should be reviewed, how the reviews should be
conducted, and how recommendations should be tracked
until implementation. Furthermore, when reviews were
conducted, corrective actions were not always taken. For
example, a peer review determined that the Acquisitions
Group was writing a cost-plus-percentage-of-cost
contract. However, the peer review system did not
require the issue to be addressed, the Manager of the
Acquisition Operations Group did not take corrective
action, and the prohibited contract type was awarded.

The Acquisition and Assistance Management Division
performed external reviews of contracts which were
awarded by the Acquisitions Group. The review
threshold for FY 2002 established by the Acquisition and
Assistance Management Division ranged from $75,000
for simplified acquisitions to $500,000 for delivery orders
awarded using indefinite-delivery, indefinite-quantity
contracts. The Division, however, did not have a system
to make sure that appropriate contracts were reviewed or
that recommendations were implemented.

Lack of controls also allowed program personnel to
improperly participate in the contracting process. For
example:

   ¾ Program personnel would design contract
     requirements and sometimes contact or attempt to
     negotiate with contractors before involving the
     Acquisitions Group.

   ¾ Program personnel treated contracts as an
     emergency and made promises to outside
     agencies, such as the EPA, concerning time
     frames without consulting Acquisitions Group
     personnel and then demanded that the
     Acquisitions Group meet the time frames
     promised.

   Subsequent to our fieldwork, the BOR-DO’s Manager
   of the Acquisition Operations Group informed us that
   the Acquisitions Group is in the process of



              4
                      implementing a comprehensive independent review
                      procedure. The Manager also stated that management
                      of the Acquisitions Group has changed since the
                      identified deficiencies occurred and the current
                      management has identified this system deficiency and
                      begun to make necessary corrections.


                   We recommend that the Commissioner, Bureau of
RECOMMENDATIONS    Reclamation, ensure that:

                      1. A policy statement is issued to establish a stronger
                         control environment for contracting including
                         adherence to procurement requirements and
                         separation of program functions and contracting
                         responsibilities.

                      2. The performance standards for the Director of the
                         Management Services Office, of which the
                         Acquisition Operations Group is a component, are
                         modified to include provisions that require
                         contracts be administered in accordance with
                         requirements.

                      3. The external quality control review process
                         includes an inventory of all contract actions, a
                         mechanism to select for review all contract actions
                         meeting established thresholds, and a method for
                         tracking implementation of recommendations.

                      4. The Manager of the Denver Acquisition
                         Operations Group establishes and implements
                         procedures for a system of internal quality control
                         and reviews. The procedures should cover review
                         cycles; contract selection; review objectives,
                         scope, and methodology; and recommendation
                         tracking. This process could result in the creation
                         of a report card to rate contracting officers’
                         compliance with procurement requirements.

                   The July 23, 2004, response to the draft audit report from
BOR RESPONSE AND   the Commissioner, Bureau of Reclamation, concurred
OIG CONCLUSION     with all four recommendations (see Appendix 3). The
                   response stated that BOR will implement policy and
                   procedures to comply with the recommendations. The
                   response also stated that BOR has restructured the
                   Acquisition Operations Group to enable the Group to


                                 5
address customer needs and find the best contract vehicle
to meet those needs, while remaining within requirements
and maintaining accountability. The response was
sufficient for us to consider three recommendations
resolved but not implemented and one recommendation
resolved and implemented. Accordingly, we are referring
Recommendations 1, 3, and 4 to the Department’s Focus
Leader for Management Accountability and Audit
Follow-up for tracking of implementation (see Appendix
4 for the status of the audit recommendations).




              6
                                                                              Appendix 1


                      Contracts and Contract Actions Reviewed
                              Plus Applicable Criteria

A.                                  Addie Mattox Contract Action

     1. Program personnel made eight purchase card charges for $13,300 to pay Addie Mattox,
        a consultant, for services which were not covered by a contract. Additionally, five of the
        charges were made to pay two bills. By splitting purchases, the program personnel
        circumvented the $2,500 micro purchase limit and avoided needing a warranted
        contracting officer to conduct the procurement action. (FAR 2.101, 13.003(c), DOI
        Charge Card Guide 3.5)

B.                       Ferguson Harbour, Inc. Contract No. 98CS810027
                    Benton Harbor Quonset Hut Delivery Order No. 9810027D01

     1. The BOR-DO inspector directed the contractor to perform out of scope work. Only the
        contracting officer has the authority to obligate the payment of money by the
        Government. (DIAR 1401.670-5)

     2. The BOR-DO awarded the contract to a proposer whose bid was originally $5,000
        higher than the low bid. The BOR-DO determined best value by adding a variable cost
        of contract administration based on the proposed period of performance. However, the
        BOR-DO did not disclose in the solicitation that period of performance would be an
        evaluation factor in determining best value. (FAR 15.101(b)(1))

C.                   Laguna Construction Company, Contract No. 98CS810026
                      Castex System Removal, Delivery Order No. 98B1810026

     1. The BOR-DO did not review subcontractor invoices and paid excessive overhead
        markups of $79,000 on subcontractor labor. (FAR 4.801(b), Appointment of Authority
        Memorandum)

     2. The BOR-DO allowed excessive subcontracting and incurred extra overhead of $72,000
        from the prime contractor in addition to subcontractor overhead. (FAR 36.501)

     3. The BOR-DO created a cost-plus-percentage-of-cost contract by directing that profit be
        applied to costs other than direct labor. As a result, profit increased by $71,500. Cost-
        plus-percentage-of-cost contracts are prohibited by the FAR. (FAR 16.102(c),
        16.601(a))

     4. The BOR-DO reimbursed the contractor according to the labor rates scheduled in the
        contract. Had appropriate analysis been performed before the award, actual labor rates,


                                              7
       which were lower than scheduled would have been identified and the contract price
       could have been reduced by $35,000. (FAR 1.602-2)

     5. The BOR-DO awarded a time-and-materials contract when a firm-fixed-price contract
        was appropriate. We were told that the BOR-DO used a time-and-materials contract to
        avoid performing a costly site assessment and because the Environmental Protection
        Agency prefers time-and-materials contracts for environmental service orders. (FAR
        16.601(c)(1), The OMB Best Practices Guide for Contract Administration, page 9)

     6. The BOR-DO did not verify that the contractor had an adequate accounting system.
        (FAR 16.301-3)

     7. The BOR-DO inspectors were absent from the worksite for 21 days, and therefore the
        BOR-DO lacked reasonable assurance that the contractor used efficient methods and
        effective cost controls. (FAR 16.601(b)(1))

     8. The BOR-DO did not obtain or review weekly statements of compliance and payrolls
        from the contractor and subcontractors to ensure that the statements complied with the
        appropriate wage determination. (FAR 4.801(b), Appointment of Authority
        Memorandum)

D.                               Clarence McNabb Contract Action

     1. Program personnel wrote nine convenience checks for $21,000. Eight of the checks
        were written to make four payments in order to circumvent the $2,500 micro purchase
        limit. This avoided the need for a warranted contracting officer to conduct the
        procurement action. (FAR 2.101, 13.003(c), DOI Charge Guide 3.5)

E.                      Cordax One Technology, Contract No. GS35F0447K
                         Delivery Order Nos. 00PE810396 and 00PG810218

     1. BOR-DO program personnel attempted to initiate a purchase order for $1.3 million to
        obtain services from the contractor by negotiating with the contractor. Subsequently, a
        contracting officer approved a $305,000 delivery order. (FAR 1.601, DIAR 1401.670,
        The OMB Best Practices Guide for Contract Administration, page 9)

     2. Contract administration personnel directed the contractor to perform work costing
        $99,000 without specifying specific deliverables. (DIAR 1401.670-5, GSA Ordering
        Procedures for Services (Requiring a Statement of Work))

     3. The contracting officer did not obtain support for a termination payment of $69,000 and
        did not document the review of claimed costs or the basis for making the termination
        payment. (FAR 4.801(b))




                                             8
     4. The contract file did not contain a record of negotiation. (FAR 15.406-3)

     5. The contract file did not contain schedules and reports as required in the statement of
        work. (FAR 4.801(b))

F.              Indefinite-Delivery, Indefinite-Quantity Contract No. 00CS810250
         Inceptive Partners, LLC, Delivery Order Nos. 00A1810250 through 11A6810250

     1. The BOR-DO prepared an Independent Government Cost Estimate that was generated
        from published salaries of national and international firms. Although these salaries were
        already loaded with applicable overhead and profit rates, the BOR-DO added an
        additional set of markups which made Inceptive’s proposed rates appear reasonable. For
        example, the published annual salary for a project manager was $120,000 a year with a
        corresponding loaded rate equal to $332,800 a year. The BOR-DO added additional
        overhead and profit to the loaded published rates to establish a government estimate for
        a project manager of $661,232. Inceptive Partners, LLC, proposed to charge an annual
        rate of $457,600 for a project manager. (FAR 15.404-1(a)(1))

     2. The BOR-DO determined that Inceptive Partners, LLC, was the only source that could
        meet the specialized requirements for a job and awarded a sole-source contract.
        However, seven potential contractors had indicated in their response to the advertised
        sole-source contract that they had the skill required to perform the job. The Small
        Business Administration stated that “hundreds of small businesses” could perform the
        work, but approved the sole-source award of the contract. In addition, the contractor
        performed only 4 percent of the work with its own forces, which indicated that the firm
        was able to hire subcontractors to fulfill the specialized requirements. (FAR 3.101-1,
        6.302-1)

     3. The BOR-DO did not verify that the contractor had an adequate accounting system.
        (FAR 16.301-3(a))

G.                 National Environmental Sciences, Contract No. 02CS910764A

     1. Program personnel wrote 22 convenience checks, splitting nine payments, in order to
        circumvent the $2,500 micro purchase limit. This avoided the need to have a warranted
        contracting officer conduct the procurement action. (FAR 2.101, 13.003(C), DOI
        Charge Card Guide 3.5)

     2. The BOR-DO did not properly review and verify invoices. Our review of the contract
        file identified a miscalculation of $1,000. (At the time of our review the payment had
        not yet been made, so the BOR-DO was able to make the correction before a payment
        was issued.) (Appointment of Authority Memorandum requires reviews of invoices.)




                                              9
     3. The contract file did not substantiate that there were no responses to the announcement
        in the Commerce Business Daily of a sole-source award to National Environmental
        Sciences. (FAR 4.801(b))

H.                 Laguna Construction Company, Contract No. 98CS810026
               Ouachita-Nevada Wood Treaters Site Delivery Order No. 98A4810026

     1. The BOR-DO created a cost-plus-percentage-of-cost contract by directing that profit be
        applied to cost factors other than direct labor. As a result, profit increased by $143,000.
        Cost-plus-percentage-of-cost contracts are prohibited by the FAR. (FAR 16.102(c),
        16.601(a))

     2. The BOR-DO created a contract where the contractor was responsible for paying
        applicable Davis Bacon rates. The contractor was to be reimbursed at scheduled rates
        which were the Colorado Davis Bacon rates. However, the contract was performed in
        Arkansas where the Davis Bacon rates were lower than the scheduled rates. If the BOR-
        DO had written the contract to require the contractor to pay and be reimbursed at the
        applicable Davis Bacon rates, we estimate that labor costs would have been reduced by
        about 55 percent or $65,000. (FAR 22.404-2)

     3. The BOR-DO did not properly review and verify contractor invoices, and the contractor
        applied excessive markups to labor costs. (Appointment of Authority Memorandum)

     4. The BOR-DO did not prepare a determination and findings to justify the award of a
        time-and-materials contract. The BOR-DO told us that a time-and-materials contract
        was necessary because the action was time critical and obstacles on the site such as
        poison oak and debris made it difficult to accurately determine the amount of excavation
        required. The Environmental Protection Agency and the state of Arkansas had studied
        the site over a period of 13 years which indicated that an adequate site assessment could
        have been performed and a fixed-price contract awarded. Consequently, we concluded
        that the BOR-DO could have taken the time to perform a thorough site assessment.
        (FAR 4.801(b), 16.601(c)(1))

     5. The BOR-DO did not obtain or review weekly statements of compliance and payrolls
        from contractors and subcontractors to ensure that the statements complied with the
        appropriate wage determination. (FAR 4.801(b), 22.406-6(c)(1), Appointment of
        Authority Memorandum)

     6. Inspectors were absent from the site on at least 4 days so there was a lack of assurance
        that the contractor used efficient methods and effective cost controls. (FAR
        16.601(b)(1))

     7. The BOR-DO inspector authorized overtime without approval from the contracting
        officer. (DIAR 1401.670-5, The OMB Best Practices Guide for Contract
        Administration, pages 9 and 15)


                                              10
I.      Veridian, Contract No. GS35F0038J, Delivery Order No. 02PE810774

     1. The contracting officer did not properly document the negotiation. There was no price
        negotiation memorandum in the file. (FAR 4.801(b), 15.406-3)

     2. The BOR-DO did not provide daily surveillance although the contracting officer stated
        in the determination and findings that there would be daily surveillance. The first two
        performance reports submitted by the contractor were unsatisfactory and had to be
        redone. If inspectors had been on site during the work, the contractor may have been
        made aware of the data BOR expected to be reported. (FAR 16.601(b)(1), The OMB
        Best Practices Guide for Contract Administration, page 9)

J.                Westinghouse Remediation Services, Contract No. 00CS810229
                  Vinton Tank Battery and Pits, Delivery Order No. 00A3810229

     1. The BOR-DO inspector was absent from the site on 10 days so there was a lack of
        assurance that the contractor used efficient methods and effective cost controls. (FAR
        16.601(b)(1))

     2. The BOR-DO did not verify that the contractor had an adequate accounting system.
        (FAR 16.301-36)

     3. The BOR-DO did not ensure that adjustments to subcontractor payrolls were accurate or
        that subcontractor employees were paid the correct wages. In our review, we found that
        the employees were overpaid by $1,300. (FAR 22.406-6(c)(1), Appointment of
        Authority Memorandum)




                                            11
This Page Intentionally Left Blank




               12
                                                                             Appendix 2


                            Scope and Methodology

Our audit was conducted at the BOR-DO. We judgmentally selected 15 contract actions
to review based on areas where we believed problems could exist. The contract actions
consisted of three contracts awarded sole source and two delivery orders issued under
General Services Administration contracts. We also identified and reviewed three
acquisitions that did not have contracts in place at the time the contractor performed
services. Finally, we reviewed three indefinite-delivery, indefinite-quantity contracts for
Environmental Protection Agency (EPA) environmental services work and four delivery
orders issued under these contracts. Our audit period was fiscal years 2000 through 2002,
but we extended the period back to fiscal year 1998 to examine the contracts used for
EPA work because that was when the BOR-DO awarded these 5-year contracts.

We identified significant regulations relevant to contract administration. We reviewed
the available documentation supporting the contracts to determine whether the contract
clauses, contract actions, and contract administration efforts were in accordance with
requirements. We interviewed the contracting personnel in the Acquisitions Group and
program personnel in the Technical Services Center. We also evaluated the BOR-DO’s
process of reviewing the contracting function to ensure contracting is performed in
accordance with requirements.

We specifically reviewed the EPA contract actions because the EPA is one of the
Technical Service Center’s principal customers. The EPA has agreements with the BOR
to award and administer contracts for the clean-up of hazardous waste sites.
Additionally, in 2001 the EPA’s Office of Inspector General (EPA-IG) began a review
of selected contracts that the BOR administered for the EPA. The EPA-IG identified
numerous problems with the BOR’s contract administration. The EPA-IG identified
many of the same problems that we are reporting including:

       ¾ Program personnel directing the contracting process.

       ¾ Paying profit on other direct costs for time-and-materials contracts.

       ¾ Not reviewing support for contractor invoices on time-and-materials contracts.

       ¾ Allowing contractors to work on time-and-materials contracts without
         inspectors being present.

       ¾ Adding funding to contracts before EPA had made the funding available.

We conducted our audit in accordance with the Government Auditing Standards issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that we considered necessary under the
circumstances.



                                            13
This Page Intentionally Left Blank




               14
     Appendix 3




15
16
17
18
                                                              Appendix 4



           Status of Audit Recommendations

Recommendation   Status               Action Required

   1, 3, and 4   Resolved; not        No further response to the Office
                 implemented          of Inspector General is required.
                                      The recommendations will be
                                      referred to the Department’s
                                      Focus Leader for Management
                                      Accountability and Audit Follow-
                                      up for tracking of
                                      implementation.

       2         Resolved and         No further action is required.
                 implemented.




                                 19
This Page Intentionally Left Blank




               20
